                                                                       OFFICE OF INSPECTOR GENERAL
                                                                 FY 2002 PERFORMANCE MEASURES
Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.


Performance Goal 1 -               Deliver quality audit and inspection products and services that are useful to the Board, management and/or the Congress.
Output/Criteria                                                                              Outcome/Impact
Audits and inspections are relevant. Audit coverage includes all mandated audits and at      FCA programs and operations are more effective. Waste in Agency programs and operations is
least 75% of those suggested by the Board and management. Risk is addressed. 100%            reduced. Better business practices are initiated.
of OIG audits are performed in high risk/high $ programs and activities and/or are
tied to the Agency Strategic planning goals.                                                      •    FCA continues to improve and develop mechanisms to streamline budget data to products
                                                                                                       and services.
•    OIG reviewed FCA’s mission critical systems in accordance with the Government                •    The Office of the Chief Financial Officer cross-trained employees developing their skills in
     Information Security Reform Act and audited FCA’s financial statement by                          critical areas. Staff meetings improve communication and foster teamwork. Costs associated
     contracting with CPA firms.                                                                       with the development of products are closely reviewed by management.

Findings made during audit fieldwork are recognized and corrected by management                   •    FCA’s Contracting Activity puts additional emphasis on ensuring procurements are competed
prior to drafting of the audit or inspection report.                                                   for the best value. Policy and procedures have been updated to ensure FAR guidance is
                                                                                                       included.
Products are timely, i.e. average time to complete audits and issue draft reports will not
exceed 6 months.                                                                                  •    Audit follow-up has more focus.         The Agency openly strives to address open
                                                                                                       recommendations as quickly as possible.
Audits are constructive. At least 75% of audit products contain recommendations to
improve Agency operations. The Agency accepts at least 80% of OIG audit
                                                                                                  •    Unqualified opinion for Agency financial statements. Security of information is validated
recommendations. The Agency actually implements all corrective actions prescribed by
                                                                                                       through GISRA review.
management decisions.
                                                                                                  •    Refined Agency process for forwarding money solicitation schemes and Nigerian scams to
•    100% of audit products contain recommendations to improve Agency operations.
                                                                                                       proper law enforcement.
•    OIG’s audit of the Office of the Chief Financial Officer contained 9 agreed upon
     actions to improve office operation and reduce cost; 6 have been implemented.
                                                                                                  •    Outlined factors for the Agency to market FCA as outstanding place to work to attract
•    OIG’s audit of FCA’s Contracting Activity contained 8 agreed upon actions and                     valuable candidates.
     two recommendations to improve the procurement process; 6 have been
     implemented.
•    OIG’s audit of the financial statements for FY 2001 was accompanied by a                FCA is more effective in carrying out its mission.
     management letter containing 11 recommendations to improve financial statement
     reporting and internal controls.                                                             •    A review of the Early Warning System of the FCS institutions provoked thought on whether
•    The Agency accepted 90% of audit recommendations..                                                the Early Warning System is actually predictive or reflective of economic conditions.
•    .All audits were performed within 6 months.

See Attachment 1 for details of inspections and audits.

•    Inspections often provide assurance to the Board and management that programs
     are working efficiently. Such is the case with the leave bank program, the purchase
                                                                     OFFICE OF INSPECTOR GENERAL
                                                               FY 2002 PERFORMANCE MEASURES
Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.

Performance Goal 1 -              Deliver quality audit and inspection products and services that are useful to the Board, management and/or the Congress.
Output/Criteria                                                                        Outcome/Impact
    card program and current bar membership for Agency attorneys. Management
    agreed to implement some practices to improve the personnel security program,
    purchase card practices and validating credentials of attorneys. Inspections are
    often completed in less than 3 months.
                                                                      OFFICE OF INSPECTOR GENERAL
                                                               FY 2002 PERFORMANCE MEASURES
Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.


Performance Goal 2 – Provide technical advice and assistance to Agency officials in developing sound management information and financial reporting systems and in
streamlining programs and organizations.

Output/Criteria                                                                           Outcome/Impact
                                                                                          OIG input and advice contributes to Agency decisions and actions that are more complete and valid at
Assist the Agency in building continuous, meaningful measures with outcomes               their inception.
important to their stakeholders.
                                                                                          Increase in management requests for advice, audit work or technical assistance.
The IG advises the Chairman concerning policy direction or administrative priorities.
                                                                                          •    Regularly, management requests OIG to validate changes in business practices. OIG is a
•   Two surveys are conducted by the OIG to obtain useful information on products              laboratory of change, a model for best practices. The Agency has based revised performance
    and services of the Agency. One survey involves the effectiveness of the                   evaluation plans on those used by OIG.        The OIG’s budget preparation with linkage to
    examination function. The other survey involves the effectiveness of the                   performance measures was used as a model for the Agency.
    regulations produced. Results are benchmarked from year to year. Survey results       •    Management requested OIG to observe the FCA’s Compensation workgroup.
    are used by the Agency for ongoing performance measurement.

OIG performs analysis and provides technical advice to management concerning
accounting, management systems and controls, and performance measures.

•   Four advisories were issued. Governance, payment of fees for professional
    memberships of staff and effective ways to deal with purchase and travel card abuse
    were the areas addressed. OIG suggested ways to strengthen internal controls and
    more efficiently manage the programs.
•   OIG also communicated to management by providing information and suggestions
    on copyright, building security, and exit interviews of departing employees.
•   The IG identifies management’s top challenges in the semiannual reports, the
    Agency’s performance report, and the audit of the financial statement.
•   OIG was asked to lead efforts in providing training in the area of security and
    identity theft. OIG coordinated analysis of suspicious mail for anthrax. OIG was
    also asked to join with the Agency on updating the Continuity of Operations plan.
                                                                     OFFICE OF INSPECTOR GENERAL
                                                                FY 2002 PERFORMANCE MEASURES
Objective: Audit and evaluate the Agency’s programs and operations to promote economy, efficiency and effectiveness.


Performance Goal 3 – Continuous improvement of OIG staff, products and internal administration. Quality is highly valued.

Output/Criteria                                                                            Outcome/Impact
                                                                                                  Peer review reports provide an unqualified opinion that OIG audit work meets or exceeds
Customer survey feedback is used to improve products and services.                                quality audit standards prescribed by GAO and the PCIE/ECIE.
                                                                                              •   Peer review of OIG audit component was last conducted in 2000. A peer review is due in
    •    Audit feedback averaged to a rating of 4.5 (5 being the highest grade and 1 the          2003.
         lowest) The OIG team is developing feedback instruments for inspections and          •   OIG participated in a pilot peer review of the investigation function.
         other reviews, as well.
                                                                                                  Customer survey feedback evidences increased satisfaction with report practices.
         OIG training ensures the technical proficiency of staff.
                                                                                              •   Audit survey feedback received was positive. On a scale of 1 to 5 (5 being the highest grade),
    •    The OIG team has taken generalized leadership training courses: Council for              survey results is 4.5. FY 2001 rating was 4.4.
         Excellence in Government, Dale Carnegie and Agency Leadership, Problem
         Solving, Ethics, and Creative Thinking courses. In addition, more specialized            The IG’s opportunity to facilitate positive change within the Agency is enhanced by the quality
         courses have been pursued, to include: Critical Infrastructure, CFO Reporting:           and credibility of OIG products and advice.
         Preparing Federal Financial Statements, Contracting, and the Directors of
         Investigators Conference. The OIG team also stays current in FCA operational
         training courses and strategic management initiatives.

    OIG implements administrative improvements identified through reviews of other
    Agency programs and through staff involvement with the professional community.
                                                                   OFFICE OF INSPECTOR GENERAL
                                                             FY 2002 PERFORMANCE MEASURES
Objective:         Investigate observed, alleged or suspected wrongdoing to prevent and detect fraud, waste, abuse and mismanagement in Agency programs and
                   operations.
Performance Goal 1 – Administrative and criminal violations relating to FCA programs and personnel are effectively investigated and reported. Agency officials and Congress are
informed of problems.

Output/Criteria                                                                           Outcome/Impact

Investigative reports are timely and presented in an objective and factual manner.        Administrative action, convictions or pleas are obtained for employees and/or contractors found guilty of
Memoranda are issued to management describing internal control weaknesses or program      wrongdoing.
deficiencies found during the investigative process with suggestions to prevent and/or    Management actions taken against employees serve as a deterrent to future wrongdoing.
detect future wrongdoing.
                                                                                          FCA internal policies, procedures and controls are strengthened to prevent and/or detect future
•   One investigation was open at the beginning of FY 2002; four additional               wrongdoing.
    investigations were opened during the year. Two were unsubstantiated and closed.
    The US Attorneys office declined prosecution of one case that has been referred to    Public confidence in the integrity of FCA programs and internal operations are heightened.
    Agency management for administrative action.         Two management advisories
    addressing program deficiencies stemmed from investigations.                          •    Investigations involving purchase and travel card abuses led to a tightening of controls over the
                                                                                               credit cards.
•   Investigations took from one to three months. Unsubstantiated investigations were
    closed within two months.

Performance Goal 2 – FCA employees and managers recognize their responsibility to immediately report observed or suspected wrongdoing to the IG.
Output/Criteria                                                                  Outcome/Impact

Allegations of wrongdoing are received in a timely manner and are supported by specific   Investigations are more successful because they are initiated in a timelier manner and have better
information.                                                                              information.

•   Some anonymous complaints are vague, lacking sufficient information to pursue an      FCA employees are more willing to report real or suspected wrongdoing because they trust the
    investigation. As a result, OIG is developing ways to obtain further information.     competence and fairness of OIG’s investigations.

                                                                                          •    OIG receives allegations through the hotline mechanisms and through anonymous correspondence.
                                                                                               Agency management notifies the OIG team when anonymous allegations are sent to them.
                                                                     OFFICE OF INSPECTOR GENERAL
                                                               FY 2002 PERFORMANCE MEASURES
Objective:         Review and make recommendations regarding existing and proposed legislation and regulations relating to Agency programs and operations and the
                   Inspectors General Community.

Performance Goal 1 – Maintain an effective program for reviewing and commenting on proposed and existing legislation and regulations affecting the Agency and the IG
community.
Output/Criteria                                                           Outcome/Impact

Processes are established and documented for identifying and circulating (as appropriate)    OIG input is part of the decision making process in approving or amending legislation, regulations,
relevant documents.                                                                          circulars and other policy positions.

•   Legislation is tracked on a daily basis. The PCIE/ECIE legislation committee is          Constructive criticism and creative alternatives offered in OIG comments improve the quality and
    active in forwarding interest items. Regulation review will be streamlined for earlier   usefulness of documents initiated by the Agency.
    review of proposed regulations.
                                                                                             FCA Board and management are informed about the status of new or pending legislation or regulations
Constructive comments on relevant documents are submitted by the deadlines requested         initiated externally.
by the office, Agency, or staff circulating comments.
                                                                                             •   The FCA revised a policy on relocation of field offices based on an amendment to the Rural
                                                                                                 Development Act and a report made by the IG.

                                                                                             •   The ECIE prepared a response to a GAO report on whether offices of inspectors general should be
                                                                                                 consolidated. A response was drafted emphasizing the differences in mission, size and structure of
                                                                                                 other agencies.

                                                                                             •   ECIE IGs advanced support for a legislative effort to have the Program Fraud Civil Remedies Act
                                                                                                 made applicable to a broader (more than cabinet level) range of Agencies.
                                                                      OFFICE OF INSPECTOR GENERAL
                                                               FY 2002 PERFORMANCE MEASURES
Objective:         Work with our Agency head and the Congress to improve program management; and work with the Inspectors General community and other
                   related organizations to address government wide issues.
Performance Goal 1 – Agency personnel understand and accept OIG’s role within FCA and the community at large.
Output/Criteria                                                                Outcome/Impact

Develop and maintain educational brochures or pamphlets describing OIG roles and           Agency employees’ acceptance of and cooperation with OIG activities is improved through better
activities.                                                                                understanding. OIG programs and products are improved through feedback from Agency employees.

•   An OIG policy concerning reporting of illegal acts was revised.                        •   Discussions during the Government Purchase Card Inspection led to a realignment of responsibility
                                                                                               (within the Agency) over the corporate credit card. Suggestion by OIG and feedback by Agency
Facilitate feedback from Agency employees and refine products and practices based on the       employees resulted in a solution that was agreeable to all concerned.
feedback to OIG products and educational materials.


Performance Goal 2 – OIG staff provides leadership to organizations directly contributing to the IG community.
Output/Criteria                                                                    Outcome/Impact

Time and resources are provided to OIG staff members as an incentive to contribute to      •   Projects and activities of adjunct organizations such as the AGA, IIA, PCIE/ECIE, CCIG, FLETC,
outside organizations by serving on committees and holding offices.                            and IGATI are improved by OIG staff contributions and participation

•   OIG staff actively participated in the Executive Committee on Integrity and
    Efficiency (ECIE), Association of Government Accountants (AGA), Council of
    Counsels (CCIG) (co-chair), International Association of Financial Crime, Instructor
    at the Inspectors General Auditor Training Institute (IGATI), GPRA Roundtable,
    Employee Council, Council for Excellence in Government, Senior Staff,
    Accountability Report Workgroup, Federal Women’s Program Committee.

Performance Goal 3 – OIG staff provides leadership to organizations directly contributing to the IG community, the Agency and the government
Output/Criteria                                                                    Outcome/Impact

•   OIG networking opportunities have resulted in an expanded consideration of FCA         FCA programs and operations are more effective and efficient.
    ideas and practices by community contacts and experts. OIG has shared
    telecommuting policies, hotline procedures, performance measures and performance       •   OIG has a goal to help the Agency build continuous, better, concrete measures with outcomes
    contracts and evaluation methods. Likewise, FCA benefits from the opportunity to           important to its stakeholders.
    benchmark practices in other Agencies.                                                 •   OIG assisted the Agency in improving electronic communication by making accessibility to a point
                                                                                               of contact more readily available.
                                                                                           •   OIG assisted the Agency is drafting budget call instructions and performance budgeting information.
                                                      OFFICE OF INSPECTOR GENERAL
                                                 FY 2002 PERFORMANCE MEASURES
                                                                  AUDIT RESULTS

         AUDIT                AUDITS ARE           RISK IS         PRODUCTS ARE         AUDITS ARE                         AGENCY
         NAME                 RELEVANT           ADDRESSED            TIMELY           CONSTRUCTIVE                      ACCEPTS 80%

Office of the Chief         OIG Initiated       Strategic Plan    5 Months         9 Agreed Upon Actions         Accepted all; 6 implemented.
Financial Officer

FY 2001 Financial           Annual Audit        Strategic Plan    5 Months         No findings.                  Accepted Findings. Working
Statements                  (Voluntary                                             Management Letter             on closing.
                            Compliance with
                            CFO Act)

FCA Contracting Activity    OIG Initiated       Strategic Plan    6 Months         8 Agreed Upon Actions; 2      Accepted 8; 6 Implemented; 2
                                                                                   Recommendations               recommendations rejected.

                                                                   INSPECTIONS

              INSPECTION               INSPECTIONS ARE           PRODUCTS ARE      INSPECTIONS ARE                     AGENCY
                 NAME                     RELEVANT                  TIMELY          CONSTRUCTIVE                     ACCEPTS 80%

       Personnel Security Program    OIG Initiated               4 Months         6 Agreed Upon Actions       Accepted all ; all
                                                                                                              implemented.

                                                                                                              No recommendations.
       Leave Bank Program            OIG Initiated               2 Months

       Bar Status of FCA Attorneys   OIG Initiated               2 Months         1 Agreed Upon Action        Implemented.


       Government Purchase Card      OIG Initiated               3 Months         6 Agreed Upon Actions       5 Implemented.
                                                      OFFICE OF INSPECTOR GENERAL
                                                 FY 2002 PERFORMANCE MEASURES
                                                                       REVIEWS


Government Information Security Reform Act - Legislatively mandated. Performed in 2 months. No material findings.

Early Warning System Review- OIG initiated. Suggestions made.
